Supreme Court, U.S.
FILED

( '

JUN 2 3 2021
No.

OFFICE OF THE CLERK

OFFICE OF THE CLERK
IN THE
SUPREME COURT OF THE UNITED STATES
WASHINGTON. D. C

20543

PRO SE RRATYT.FV KARRFTT — PETITIONER

(Your Name)
vs.

LUMPKIN DIRECTOR TDCJ

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES DISTRIC COURT SOUTHERN DISTRICT OF TEXAS HOUSTON& 5th
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

BRADLEY GARRF.TT#2052570

(Your Name)
COFFTET.D PRTSDN TDC.T

3661fm 2054

(Address)
tonnogfl.qp colony, Txf7S884
(City, State, Zip Code)
not known

(Phone Number)

QUESTION(S) PRESENTED
THE QUSTION IS NOT MERELY THE WEIGHT OF LIBERTY OF PROPERTY
WITHOUT LANGUAGE OF THE 14th AMENDMENT.. ONCE IT IS DETERMIND
THAT DUE PROCESS APPLIES THE QUSTION REMAINS WHAT IS DUE PROCESS?
IT HAS BEEN SAID BY YOUR COURTS THAT DUE PROCESS IS FLEXABLE AND
CALLES FOR SUCH PROCEDURAL PROTECTIONS AS THE PARTICULAR SITUATION
DEMANDS
AT THE TIME OF TRAVEL THE DISTRIC COURT WAS OR HAD RULEED IN THE
FAVOR OF THE STATE DOES THE RULES APPLY TO THOSE WHO ARE BAR TIME
IN TRANSFER AND UNIT MAIL NEVER REACHED PETIONER UNTIL MONTH LATER
AFTER THE THIRTY DAYS LAPSED?
PROPER ACCESS TO LEGAL MATERIAL WHILE INCARCERATED UNDER TWENTYFOUR
HOUR LOCK DOWN IS TO THE STANDARED OF UNIT OR WHAT IS NEEDED TO
PROPERLY RESPONED TO COURTS PROMPTLY?
UNDER LAW OF OATH WHAT IS CONSIDERED TRUE PURGERY?
CAN' PURGERED TESTIMONY MAKE ANY WITNESS NON CREDIBALE?
CAN A MATERIAL ITEM STILL BE CONSIDERED ANY EVIDENCE IF IT
HAS 1. BEEN CONTAMINATED? 2.HAS MORE THAN ONE DNA IN IT BUT NOT
OF ANY TO THE VICTIM?
WHAT IS THE RULEN ON DNA TRANSFER?IF A PERSON IS NOT PROVED TO
BE AT THE SCENE OF A CRIME BUT DNA IS PRESENT IS HE STILL GUILY?'
WHAT ES THE RULING QN TRIPLE DNA MIX: TOTH- CONTAMINATION OF WEATHER
ELEMENT ?
IS EVIDENCE EVIDENCE AFTER THE SEVAYOR HAS REVIEW THE CRIME
SCENE THOUROGHLY POINTED OUT BY WITNES BUT NOT TESTIFYED TO
OR DISCIBED?
IF A BATSON IS CALLED IN THE COURT AT THE FINISH OF THE VIDOR
AND THE STANDARED OF RACE OR ETHNICTICITY HAS NOT BEEN REACHED
BY VISABLE STANDARED IS THAT ENOUGH?
IN A JURY SHUFFLE CAN ONE JURIOR BE SKIPED AND REPLACED WITH THE
NEXT IN LINE?WITH NO CAUSErTO WHY?
WHAT IS THE STANDERD OF DUE PROSES DEPIVATION’"0F LIBERTY SUBSTANTIVE
AS WELL AS PROCEDURL?
HAS THE STANDER UNDER WINSHIP BEEN CHANGED OR IS THE SHODOW OF
A DOUT A FLEXABLE ISSUE?
DNA WAS USED TO STRENGTHEN CASE AS TO PRESENTS AT THE SCENE
BUT IT DOESNT PROVE EITHER PRESENTS OR CRIME IS DNA SUPORTED
BY THE COURTS ILLIGALE SEARCH AND SEIZER OR TAINT OF TREE?
WAS MY COUNSEL INS.UFICENT IF THAT SAME DNA WAS NOT USE TO PROVE
THAT TESTOMNEY OF A'PHYSICAL' ALTERCATION COULD NOT HAVE BEEN DO
TO TRANSFER OF DNA?USED TO PROVE THE WAY THE MURDER ACCURED..

LIST OF PARTIES

£X| AH parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
GARRETT V.DAVIS 4Y17-CV-03363 H.S.DISTRIC CQURT*60UTHERN-DISTRICT
OF TEXAS HOUSTON AUGUST 31 2018 ruled dissmiss without prejudice
GARRETT V.DAVIS et~al., civil action H-18-3337 U.S.distric COURTS
FOR THE SOUTHERN DISTRICT OF TEAS HOUSTON JUDGMENT ENTERED OCTOBER 18,2018
JANUARY ;,26:^2021 MEMORANDUM AND JUDGMENT ORDER 4:18-cv-3337
GARRETT V.DAVIS H-18-3338 UNITED STSTES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF TEXAS HOUSTON DIVISION DECEMBER 4 2018 judgment
GARRETT V.HARRIS COUNTY JAIL,et al.,H-19-1939 judgment entered •
august 9,2019
4:19-cv-01939

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

. 3
crane v.kentuky 476u.s 683,690 106sf.-ct2142
medina v.barnes 71f.3d 363- - * • - - Huddleston v.u.s686 99L.Ed 2d771 108s.ct 1496 R&R01O81 1080...9
gentry v.sinclair693F.3<3 867- -.....................
weaver 450 u.s@28-29 lOlS.ct 960
UNITED STATES V.gaudin 515 u.s 506 510’115S.ct2310132
winship 397u.s@361 90S.ctl068
stone v. powell 428u.s 465 96 S.ct 2539 2600
ex parte lange 18 wall 163 176 21 E.Ed 872
ex parte siebold 100 u.s 371 376 25 L.Ed717
wain wright v. sykes 433u»;s 72 79 97 S.cT 2497 2502 53 L.Ed.2d
594
morrissey v. brewer 408 u.s 484 32L.Ed 2d 484 92 set 2539 2600
i i

STATUTES AND RULES
ER 404(11) under rule(404b) . •

9

violations of the 6th amedment and 14th amendment to
confront also resoable dout clause
5th amendment deprivation of life liberty or propertys with
out due process under federal authority
4th amendment violation of probable causes
illegal search and sezuir of dna
batson judged by a jury of peers and of ethnic statue
violation of the three step clause
jury shuffling

OTHER

i

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

IN THE FIRST COURT OF APPEALS OPPINION ISSUED
PETION FOR DISCRETIONARY REVIEW REFUSED

MARCH 30,2017 AFFIRMED
AUGUST 23*2017

APPENDIX B
DECISION OF TRAIL COURT VERDICT BY JURY GUILTY
FEBUARY 12 2016 original verdict field in the court

APPENDIX C

DESISION OF THE UNITED STATES DISTRIC COURT OF
TEXAS SOUTHERN HOUSTON-'FINAL JUDGMENT . NOVEMBER .29, 2018
DISSMISED WITH PREJUDICE DENIED APPEALABILITY
UNITED STATES COURT OF APPEAL FOR THE FIFTH CIR.
APPENDIX D
panel DISSMISS FOR LACK OF JURISDICTION MOTION FOR RECONSIDERATION
DENIED MAY 6, 2021
APPENDIX E
APPENDIX F

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix_2__ to
the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[J is unpublished.
The opinion of the United States district court appears at Appendix_£__ to
the petition and is
[ ] reported at
J or,
] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ % For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix__A_to the petition and is
; or,
[ ] reported at
Ik ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
TRAIL COURT
court
The opinion of the
appears at Appendix
to the petition and is
[ ] reported at
; or,
Cx3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1.

JURISDICTION

[ $ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
MAY 6 2021 -APRTT. 3 j‘2021
was
[ ] No petition for rehearing was timely filed in my case.
[ i A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: MAY 6., . 2021..order denying rehearing appears at Appendix_D
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
to and including______
(date) on
in Application No. _A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ 3 For cases from state courts:
The date on which the highest state court decided my case was AUGUST '23,2017
A copy of that decision appears at Appendix_A____
£] A timely petition for rehearing was thereafter denied on the following date:
.9F.PTFMRF.~R 19 7017
, and a copy of the order denying rehearing
appears at Appendix__a
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

THE 14th amendment section #1.ALLPERSONS BORN OR NATURALIZED
IN THE UNITED STSTES AND SUBJECTEDi-TO THE JURISDICTION THEREOF ARE
CITIZENS OF THE UNITED STATES AND OF THE STATE WHEREIN THEY RESIDE
.•NO STATE SHALL MAKE OR ENFORCE ANY-'LAW-:'WHICH SHALL ABRIDGE THE
FRIVI^:GE5. 0R .IMMUN:|:TIES of CITIZANS OF The UNITED 5TATE5;nor any
ULrKiVfc; AJNY RJiksun Uf Lift; LiBtKTY Ok fRUFEKTy WITHOUT DUE PROCESS
OF LAW,NOR DENY ANY "PERSON WITHIN ITS JURISDICTION THE EQUAL RIGHT
OF PROTECTION OF LAWS
IF THE FOURTEENTH AMENDMENT APPLYS TO ALL OF1 THELUNITED SSTATES
THE QUSTION IS IS TEXAS APART OF THES STATES AND DOES THE RULES .
GIVE YOU A RIGHT TO TAKE AWAY MY PRIVILAGETO ARGUE IN THE FIRST
APEAL MY ATTORNEY AGUED ABOUT THE HAT AND THE WAY IT WAS HANDLED
AS THE LIGHT SHINES ON THE FOURTH AMENDMENT MORE THAN THE FOURTEETH
BUT THEY BOTH GO HAND AND HAND AS TO AFTER A ILLEGAL SEACH AND SEIZUR
OF DNA AS THOUGH YOU DID't know more than ONE DNA WAS PRESENT FORCES
ME TO TURN OVER PROPERTY THAT DOESNT PROVE INTHIS CASE PRESECES
OR ACT OF SUCH ILLIGALITYS TOWARD TOWARD'-TEXAS OR THE UNITED STATES
AS A HOLE BUT DEPRIVES ME OF PROPERTY AND FREEDOM THAT THE CONSTITUTION
STATES THAT I'SHOULD BE ABLE TO ENJOY FREELY AS A CITIZIN OF THE
UNITED STATES OF AMERICA IN THE FIRST COURT OF APEAL THERE DESION
TO AFFIRM WAS BASED ON THIS CAP THAT WAS NEITHER AGAIN PROFF BEYOND
A REASON OF PRESENT OR CRIME THE CRIMINAL COURT OF APEAL REFUSED
BECAUSE OF FORM OF P.D.R OR NO REAL KNOWLEDGE OF FORMATE GOING PRO
SE THEN DENIED ME REHEARING BECAUSE OF UNIT TRANSFER AND I WAS SUBJECTED
TO DELAY EVEN WITH TIMLY INFORM OF ADRESS CHANGE THE MAIL STILL DID
NOT MAKE IT TO ME ON TIME FOR A BETTER RESULT HOW DO I PROVE THAT
RULE 1998 sub(a) amendment rule 28(a)(D)(5)(6) the first is staten
we are basicaily subjected to what everthe advisory committy states
we have no other choicethen to use what is desinged for us weather
it fails us or not
in the same event this has.-accured several times this has accured
in everyone of the appedix from-AM) MAIL SEVED TIMLY HAS BEEN A
ISSUE THE DISTRIC COURT BASED THERE OPPION ON LAYLA WUKKE TESTIMONY
CALLEN IT COMPELING NOT GIVE LIGHT TO THE FACT THAT SHE TESTIFIED
TWICE BOTH TIMES SHE TOLD A DIFFRENT STORY AND AGAIN SHE WAS THEONLY ONE TO TESTIFY THAT PETIONER MURDERED 'SCOTT CLARK STILL THE
COURT LEAN TOWARD TESTIMONY MARION SANDERS STATED THAT THE STATE
VISITED HIM TO OFFER HIM A DEAL TO'DO AWAY WITH A SETENCE OF FAMILY
VIOLINCE THAT HE WAS STILL ON BAIL FOR PENDING THE TIME OF THE CASE
EDWARD WOODROW THE OTHER VICTIM WAS IN TDCJ AT THE TIME AN WAS SHIPPED
IN TO TESTIFY FOR POSSABIL RELIEF FOR WHAT HE WAS DOWN FOR AND AS
HIS CRIMINAL HISTORY SHOWS HES A CONTENUED OFFENDER!WHO AT THE TIME
SHOULD HAVE BEEN FACEN MORE THAN TEN YEARS AT THE FEDERAL LEVEL t
THERE USING PAPER WORK NOT THE FACTS TO BE REVIEWED 'STATEN A VIOLATION
OF SUB CNONE EXHAUSTION OF STATE REMIDIES OR TIME BARES IMPROPER
FILEN ECT. EVERY THING BUT THE FACTS THAT HAVE ALREADY BEEN STATED
LEAVEN A VIOLATION OF THE FIFTH AMENDMENT UNDER THE TERM COMPULSORY
SELF INCRIMINATION WITH THESE ISSUES YOU FOCEN ME UNDER THESE:
WORD AS THOUGH THEY ARE UNBRELAS TO STOP THE RAN WHILE MY FEET ARE SOAKED

CONSTITUTIONAL AND STUTORY PROVISIONS INVOLVED
'"•CONSTITUTINAL ERROR TO ADMIT EVIDENCE THAT IS TOTALY
Without relevance to the criminal proceeding dawson
V.DELAWARE 563 U.s.139 165 llQSIct 1093 117L.Ed.2d
309evidence as the hat and perjured testimony! i
introduced rendered the trail constitutnal and
fundumentaly unfair the due process clause of the?
14th amendmentprovides a mechanizim for relief payne
v. tennesse 501u.s.808 825 111 S.ct 2597 115L.Ed.2
720theres violations of the double blind citing
tegoseak v. state 221p .3d 345‘.Stephen being turned
around at the door
all found in the 22 pages of the theshhold burden
file, ineffective assistance if our own forensic
h$d been citing miller vanderson changed
'Ispecailist
petioner again prayes that you see what he sees and
grant this relief and writ of certiorari

STATEMENT OF THE CASE
On or about the 22nd of june at a club pationer
was said to have worked a man was.'murdered by
the name of scot dark he and two other guys
fullyintoxicated on pep and alchole created a
distubance at the club that involved : the
security of the club it was said that several •
fights broke out that night and morning and that
petioner was the one who was doing the fighting
at some point it was testifyed that petioner
became so angrey that he lifted scott dark up
off his feet: fully slaming him on the hood of a
taho truck belonging to a layla wutkee with one
hand while bandishing a gun and fireing one solid
round in to
head of scott
depriven him
of life in the same movement it was testified that
he also contiued to kill one of the guys he arrived
with causen also bodliy harm to him as well a
edward woodrow sustained four muiltipul gunshots
to the legs crippling him for the rest of his life
although'its not clear how all of this happen or
procise time it all accured or were the gun or
guns came from or if he was even there to begin
with even the lead homicid detective in collection
of footage
testified he saw no crime being commited on tape
theres no weapons found there are no finger prints
there is only the testimony of one layla wuttke
a hat that no one testifys to in discripion though
the hat is very uniqe even presented in black an
white photo*it became the center of evidence to
prove presents of petioner that night at the club
even thought testimony says he was else where
and the DNA on the hat it self was testfied to
two other DNAr,s oftwo other people are in that
hat the hat in qustion-the oneis said the shooter
wore but no one described petioner was found guilty
of first degree murder and senteced to 30 years
in TDC^CID with parole andh this apeal since
2016 petioner has been trying to with little v
knowledge complete the apeal process on febuary
12th 2016 the jury brought back the verdic of v
guilty petioner explains it all in detail of all
the issues in a 21 page break down of the case
add to this petion he ask if your willing to
walk through it and the transcript I’m sure^you
will see enough*

REASONS FOR GRANTING THE PETITION
Befor I go and take a look at the rule ten
and try to find where I fit--in I would like
th; say this in why I pray you grant this writ
because petioner was never given a proper chance
do to handy caps of knowwledge of law not onlyv
is this his first time seeing these things he’s
atempting it at his own risk to point out what
even the jury looked over* that the state'allowed
that the testimony doesn't even match the evide
-nee presented petioner has taken a beaten from
unit mail rooms to staff to being transfered
several times even placed in a 23-24 hour a
day lockdown to dicourage the use of the legalsystem the same one that turns him down and want
listen to unit mailrooms doing what they fill
with mail even though books say thirty days
and he's recieven corraspondance one week to
days to return it to your courts with three
shots a week to come up with the proper info
to even know if he headed in the right direction
several times even now mail is taken several
more days then it should to get to him so that
it can be properly answered he's left to choose
to keep trying in a enviorment ment to stop his
progress or become one of these mindless drug
enduced men who wear this incarceration as some
kinda badge proud to be a inmate^he would like
torbegg you to grant this writ to stop the deprivment
of his due process and legal^right to-afair trail
without miss use of law tipped in the favor of
procecutionttrying torcreate truth truth is
not as we see here bribes guieds and coercion
of witnesseswe just need the facts and the facts
should tell it all with out ■ a reasonable dout
as winship points out ANY reason to dout is to
much btit when a case presents more than a reason
then help is need from the true fact finders to
bring things back into the scope of justic

THE UNITED STATES
.... ‘SUPREME COURT,SCOTUS

v
/

BRADLEY GARRETT
V.
LUMPKIN
NO.20-20561 USDC NO.4;17-c
v-3363
THESHOLD BURDEN
petitioner believes that he
has been violated-in severa
-1 ways that due proces has
been one is notice and the
opportunity to be heard by
anunbiased judical platform
and is aware that the state
of TEXAS located in the
UNITED STATES OF AMERICA
UNDER THE full jurisdicion
of the SUPREME COURT
in a substantive an procedu
-ral manner in all forms an
rights we know the concept
of substantive is personal
liberty and is use to prote
-ct fundamental rights from
arbitarary deprivation by the
state and goverment
the story starts JUNE 22, 2014
on this date the petioner was
accused of and indited by a
grand juryin the city of houston
harris county located in TEXAS
OF first degree murder of aone
scott dark the prosicution
states that the petioner with a
weapon did and knowingly cause bodly
harm to deprive life from dark
scott king and ask that the
jury find him guilty of murder
this accured on the date of
febuary 9th 2016to the date
of febuary 12th 2016 trial
jury ended in sentencen 30
years with appealett
privillage petioner acknow
-leges that the privallages
given to him to attack the
collateral under inital appeal
PDR,2254 and the 11.07 the

al5ofgiK?I Sill Sfi MfliSl1011

style the petioner was informed
that at this moment the fifth
circuite has NOT the jurisdiction
to pursue any further the gounds
or issues that could find relif
from this senteces
this threshold is to give full view
on the is.sues unheard by the
fact finders or trier of fact
the reason for this is that
the petioner is sure that all
the facts are and have been
metso to avoid rejection and
another deprivment of due process
befor reachen the proper parties
after the opening statement
the trial states with one
RTT.T. FEATHEPSON located in
transcript RRPP18 v3
in this witnesses qustioning
by the state theres a video
being shown to the jury that
the state is claiming to be
real time footag of the murder after the fact
direct on top of the body
as Ms baldwin calles it pg 31
14-18 line
exhibit no.50 a dvd print out
of bill feathersons cell phone
of the secen of the crime evenwith him filming the scene
*
he and his lieutenant micheal jack
-son bill states on pp26 v3 %
that he couldnt make out a
full discripion yet petioner®'
transcript index log states
that a 911 phone call was made
with discipion of suspect an
a white male was discribed
approx 6ft tall
please see the exhibit recored
tabled s-1 admittedpp25 v3
the dvd taken by cell phone
labled s-50 located pp28 v3
now again recall pp26 v3 lines
1-18 on pp34 v3 7-13 asked
again about the phone calls
to 911 yet he stated earlye
in testimony under oath that
he didnt get a good discripion
of the suspect but he saw again
listen to the 911 calls
petioner fills that this along with
other testimony
^s* yery similar to this

kind of testomony all through
the states witnesses and fomation
of the states plan to controdic
and under mind the laws and
rules set by the united states
legal system to keep up the
numbers of convictions more
wrongfuly than right in the
state of TEXAS
depriven petioners as my self
of due processprocedural or
substantive as I stated in
the intro or this threshold
petioners attoney was incompatint
because of not bringing things
like this to light the fact finder
was at fault because these
things were over heard and
recorded in transcript yet
nuthen was done about it to
bring light to the Hpnn'vmpnt
citing crane v.kpntukv A76 ns
683 6Q0 106 g-rt91 LO ( \ OSA'l
several of these witnesse testimony
periurv even detectives as
well as so called eye-witness
accountes leads you not to
lean to the credibility of
any of the eye witness accounts
yet the state still calles it
• compelling testimony for the
r,est of what will be pointed
we will cite
nfedina v.barnes 71f.3d 363
at this point you have to be
as I would and that understanding
say well this is a isolated
testimony that can be explained
via bthe fact that the 911
phone call says that of a white
male and the pitioner is a
black male about 5*9 5'10
230 to275 in weight but lets
walk though more testimony
like this the next witness
the state calles is an officer
patrol by the name of harper who was the patrole
that answered the 911 "phone
call
outside of somethings that
were out of his control
he did nothing but his job
but^as we move to the head
b®¥!^^daiide.tcetive we start

3

■o

VP
the head
N|a-rV r.nnHmi who is as he says
a homicide gang murder squadsays he
was called about 8:15am now
may the courts be aware that
this lead detective testifyed not once but twice
found at 46 v3 73v3 66 v5 78 v5
and 97 v5 but first lets walk
though 46 v3 8:15 is when he
got the call he says on pp51v 3
that it takes him 45mins to
a crime scene who can for see
that but it is his truth so
he goes on about hi#partner
first he says they arrive together
thenhe says on pp52 I arrived first
he arrived after then he is
shown whats marked as exhibit 5-30
these are photos of the crime scene
fine rite but what strikes me as
strange is that although offficer
harper the first patrol cop
after the two security guardes on
the scenestated that he wasnot
able to secure the full scene
of the qime just the section
where the body lay now mark
condon gats on the stand an
under oath on pp54v3 and 55v3
states how importantthe tappen of the crime
scene is see harpers testimony on pp42v3,.
43v3 44v3 also notice that
on pp55v3 mark condon' lead
homicide detective recalles
hat, blood ,shells and a twenty dollar bill
were is this going if you keep
reading to pp56v3 he speaks
onmarkers that patrol put down
as the coversation keeps going
he makes a comment about the
use of rocks to hold cups in
placehe was asked was it windy
he says he doesnt recall when
asked if he remembers weather he states
he thinks it may have rained
what in the 45min it took you saw no rain
or the pictures of a wet boddy on the
ground wet vehicals condensation under the cups
does not tell the story it self
line 20 of pp56v3 tells of a erring
exhibit no.10 thers a shell
on the hood he mentions layla wuttke
the number one witness for the state
suposed on her vehical is wwer the
murder accuredmark condon was asked

...____________ -■

H

v

- V9

was there any evidence retreved
from the vehical he said not
inside and what about the outside
all of which came up inconclusive
because what mark conden isnot
saying and the state is dancen around is that
it rained for more than two
hours on the crime scene befor
and while he was there
he showed up to a already contaminated
crime scene which started back
with the two security blue moon officers
prefilming the crime scene for themselves
were we will later find outthat
mark condondid not discover
the cell phone footage tilldays
later even after the inditment was settled
seepp66v3her he states that
a Mr. freeman gave him the imformation
to file murder charges but here
in pp72v 3 his report says he was
looking for a ricky never displayed
with short hair the photo array presents
long hair even dreedlocked men
then on the next pp73 the
redirect by state asked onequstion
and again they go to laylas
testimony befor she testifyes to it
or anything as though statecounsel is sure of
it befor it happens as though some
sort of coerion or script was being
used to get to the conviction planed
he contrdics him self by staten in
pp74 v3 that another officer put
together the spread first he said he did
from freemans video he futher states
that he took the photo array to
woodrow the other victim inthe crime scene
who was shot at this point in the hospital
heavy sudateduder what ever
pep is still in him and hospital
given drugs to stop pain his bones
are broken from the buletts
.sillX^muyen. testifys next to
the statment that mark condon
will be re-called duy nguyen is the
wfToseveyed the crime sence
the statment that makes this
interesting is that the evidence in
this case was a trainees first day
as stated in pp79v3 line 4-5 he
says I was cstill training
his next ststment makes you
tMflk a•• little moreT.line 6-9 states that

£

N N

that he usualy talks
to a homicide detective to see
what he needes so as he states he needes the
homicde detectives there to
collect what they need in the
pp88v3 the state is asking about
the position of thfchat andshoe
inpp89 the court over rulesthe objection
aboutthe qustioned crime scene items
the court allows Mr. nguyenstates
he may have been runniing aaway and he
ran so the shoe and the hat came off thats how
close in poxcimity the hat and the shoe
is he also states that it looks like the
shooting started from the door out to the parking
lot he also states he looked
like meaning mr scott dark victim
was tring to get to the car
if so were was his car because woodrow
and sanders both in there testimonys
state they had no car they were all on foot
all fifty of them but we will get to them
the forisic specailist or trainee
confirms that on pp97v3 line 2-8
that the crime scene was rained on
ms baldwin continues to qustion him about
the contaminated scene he proceed
as though he doesnt know orwas
not that pp98 v3 line 14-20
my qustion is that okay to
still collect samples of contaminated
evidence if thats what it is
pplllv3 the admitted paper bag
exhibitno.43,42 and the center
item of evidence the suposed
worn baseball cap by the petioner
at the time of the muder pp
114v3 line 4-25 asking how
far did he observe the crime
scene ppll5 asking him about
surveillance equpment ms. baldwin
walkes through his log making sure
he understands that the crime
scene is contaminated but he
contiues as though he doesnt
know any better ppll6-119 all
she even makes clear that thers no weapon
base to even say wer the fragmented
projectals could have come
from the qustion were they return fire
or from the gun that killed
dark scott he cant answer those
qustions baldwin recross ppl20-121
v3 she backs and ask the question
are you not aware of the crime scene

6

c.

He still doesnt understand but
confirms that if there is any
qustion to if the crime scene was
contaminated we are sure to say
this because of the addmited
statement of not one but two
plus exhibites photo there was
no crime in him training that day
but could there have been various
mistakes made that could have been
avoided had a person with experiance
work the scene but this is not the
worst of it one of the main points
that trail attorny baldwin touched
on was these same items brought
by analysis who did work on these
items yet only one showed up
which brought up a sixth amendment
confrontation which still has not
been explained
aside them saying that clay davis
was the over seer of the analysis
so its okay for him to testify that
it was all his work and marrie
rumble and other analysis are.
just parts of the chain the supreme
court ruled that that was fair to
stand in as long as he did the work
petioner states it still does not
answer what happen to it in the move
in the ,chain while it was in the
hands of these other analysis
moving on to the next witness
j^ATTPTAN SAismF.PS he starts of
with one contridiction after
anotherhe first startes ppl22
v3sayen that this pig guy is his
uncle but some how only the state
knows who pig is when asked if he
knew pigs real namehis answer is
no seeppl23v3 line 1-25 he also was
asked aboutlittle wood he called
him again only the state knows who
he is referen to befor you get pass
ppl24 you start to realize that
the state is going to lead, this
testimony but he brings light to
several points like the time they
got to the club he says 4am layla
says 2am or 6am woodrow the other
victim that was shoot says other
wise no one even knows when he
explains that he and these guys he
was with continualy stepped out to
get high off pep cigarettes on pp

*7

'S

126v3 he as I said induced some
information that no ontfelse opened
he states that there was trouble in
the clubon line 13-19 discribes how
he felt the continue of his statment
confirms there was trouble in the club
that lead out side lines20-25 speaks
of a altercation on ppl27 he brings
refrences to two other individual
that are not named therewith them
he refers to them as homboys and
explain there actions to leaven in and
out of the club not once or twice now
he says three times ppl28v3 he brings
out that the altercation was with
females he states that on ppl29 that
the female(s) were with some dudes
see lines 1-14 claims he never saw the
person they were fighting ppl30
v3 claims it was the first time he
saw the guy butchages his stoy again
and says the guy was all over inside
and out again states a girl was involv
-ed-guns were drawed as he fought them
off pp 131v3 security became involed
ppl32v3 he states he step in to stop
it and that mr sanders tryed to fight
the security as he admitted that he was
still high from the pep ciggeretts he
says security passed his gun then he says
gunbelt he states that he sees another
person with a gun now if your folloen
he~has testifyed to now three■diffrent
guns on the scene ppl33v3 we still
know who this pig is now he claims he
doesnt know woodrow or wood as he calls
him I assume line 22-25 he states hes
going to try to get more of the I assumed
50 homboys that they were with earlyer
from the neighborhood so lets stop here
to discuss that know theres fighten that
is confimed the victims clothen was,tested
for traces of any other persons DNA
but was not used as to proff of inocent
citing toney v.gammon 79f.3d 693 a
jones v.wood 114 f.3d 1002 the blood
on clothen of dark scott and although
to me would be really good points we
have to under stand that there may have
been lots of evidece lost yet nun of it
was explored verbatum to whats not theer
fingerprints servalince camra fottage
although there is some mark condon an
the review of this fottage show that
there is no sign of petioner in or
$

aroundthe crime scene so I assume
that all of this falls under chain of
custody as the challenge of such mattes
goes to the weight not the admissibilty
of despit the fact that DNAwas not
presented for review pertaining to
presence at the scene verses usen the
hat that neither show presence or_crime
time frame or any other link to give
truth to the conviction handed down by
jury and judge
these things in the scope of EEA04(11)
under rule (404(b) huddleston v..us 48!)
7i o
QQ l pH 7H / 71 108 s.ct.1496,
nMOS1 r 1080 although the first
move for appeal was pointed at the
DNA missing links there were other
as petioner shows her things that were
gross neglagnet issues that just dont
add up to law as shown all theses double
contadictions by important witnesses
as we go futher we even find that the
line ups picks were done by the officers
instead of the witneses
some by hand others by sugjestion but
not proper under the rules of blind line
up so lets continue through mr sanders
testimony to find out what else he reveals
about this case petioner calls it a coercion
gone wrong
ppl33v3 line 20-25 says he wasgoing to get
homboys out the neighborhood ppl341ine 1-2
he changes the story in line 6-8 he discribes
a hat or the hat and clothen of the person
with the gun line 10-25 he speaks about
a hat descibes it as a all black fitted
baseball cap the hat in qustion is a
black hat but not fitted it has a buckel
back and has five point stars all over it
the state asks the qustion was it turned
in a spacific direction left or right
the hat is under states exhibit s-43
see the pictuer copare it to the testimony
see if this is the hat discribed I would
assure its not
he discibes a 5*5 5'7 5*8 person thick
not chubby or heavey build eyes and a
big nose dark or brown skin ppl35
pp 136-137 he testifyes he ran off_
and found the fcwo bl^p monp securi-tv
frjll fe^tfipraon and irHr-hp.al iackson
when he reaches them shoots rang out
he says he didnt see who did the shooting
ppl39v3 he states that in line 10-12 .
that the line up may have been sugjestive

9

he chages his story again and states
upon being shown his line up admonishment
that the petioner was the one given the gun
this makes no scence he went from not known
to now implcation of the petioner with the
gun as we move toward the ends of his testimony
see pp and cross exam 145-147 he testifys
here that he was visited by the state to
testify in this case for mercy for a felony
case pending out of the 178 distict court
he even goes as far as tostate in linel8-20
the month they came to visit him exactly
4months befor this trail accured now my
thought is they let him sit he did and
signed the admonishment for the state
dated for the date of june 22 2014 as
though he did it that day and they/ let
go on bond just a guess pp!48v3 retail a
diffrent story now he states that they
split up at the club and wood or little
wood the other victim who was shoT did not
go in to the club which is significant
because later woodrow tells the stoy that
he wasnt allowed in the club with the wif
beater a tank top under shirt on he says
he bought a shirt to come in the club
but on camra he was seen with the tank
top wif beater on even after being shot
when defence begans to qustion him about
his statment of little wood woodrow he became
angrey ppl49v3 lines 1-8 and had to
apologize about his mood swing the court
informed him of the correction of his behavior
ppl50-151 re capesthe phisical altercation
and again says it started with him but ealyer
said it started with little wood filming
and a female that is still unknown he goes
in depth about the use and history of his
use and the desesed dark scott use of pep
and how it was used abusivly that night
she turns the attention to agin understand
that the line up was suggjestive ppl52-153
next it took several times to understand
but with the same answer and qustion so
you pick the one with the big nose I wonder
was it that way for all the admonishments
did every body have a thing you find out
not quite but to get what they were looking for
yes the use some tactic even mark condon
testifying as I said befor that he did it
for edward woodrow and let him sign it
violation and still sugjestive
layla wuttke is the next to testify
she to testifyed twice see how her
story changes over and over again

10

r-.

T.AVT.A UITTTK-F i. the next to :1:
testify first she explains ^
her positions as this finishe
-s she starts to explain the
story of the altercation that
morning as the state inplys
ppl55v3 she starts by page
ppl61 she startes to explain
how the three gentalman dark
woodrow and sanders started
to argue with the security
guard then puches we.:-; '. V
saw she says were thrown
she indicates that Stephen
was the security in the
fight with the three men
but she states petioner
did not work at h20-that night
but came there to get paid from
anther club .ppl63v3 she states
that;she first saw petioner at
the front of the bar bought 6am
ppl64v3 she states when the
altercation happen he was««in
a vehical say he exited the
vehical when the altercation
escaladed-TVShe states that
inlines 12*25 they tryed to
seperat first qustion who is
they if petioner and Stephen
were the only ones involved
they can stop a altercation i
if one is in a fight or aguing
she states in line 22-23 that
the petioner fought the older
gentalman in ppl65v3 she clears
who the older gentalman was its .
dark scott or as sh puts it
the one that was killed^she again
makes referances to more than
one security but she implied
the petioner was her security
at least thats what sanders says
and woodrow to once we get to
him~and his testimony she clarifys
sanders ran .she speaks of no
guns drawn on the gentalman just
fighting'She states more than
one fight accuerd she identifys
petioner in the court room bu
if thats all it takejto convict
indhe state of TEXAS one person
pointen and saying he did it
jim crow is more successful tan
i thoughtl thought it took the

\

W

f-

of at lease two or three.?
it states that even in the bible
ppl67 she states thattthe older
gentalman now clear is scott
dark the deceased asumen still
high off pcpornragenin lines9-ll
he states khowf-one knows who
he is hes sceaming she got in
her vehical pictures of it in
exhibit no.5 a key pieace of
information2in line 22-25 she
statesl opened my caddoor and
I got in heres the key befor I
could close my door she says
the guy the older gentalmanvwas
in front of my car still talking
still going on again she says
still going on now right here
is where we put on our thought
caps why did scott dark attack
her as she states what reason
would he have as she tells it
shes just some one viewing a
altercation heres somthingv
else to think about recall
a exhibit with mesexhibit-i
marked 27 on the picture you
see a pearl like erring and a
shell casen the shell case is
on the drivers side of the car
so is the erring did scott dark:
lose it then why is not other
jewlry on th ground or hood if
all this fighting accured more ?
over were is the DNA he is seen
in exhibit picture fld.24rwaaring
mutipul pieces of necklaces wrist bands
and a watch never got brokfe came
off nuthen with all this testifyed
phisical hard fighting slaroing on
car hoods and norDNA transfer
sounds kinda unbelivable^but
as I said for the lead homicide '*c
detective it her story ppl68v3
lines 4-12 she states tussle
then she states petioner pulls
a weapon gun and shot him she
states that :r Stephen was at the
left of the vehical now I am
not a genuis but I do know left
right everything I mean all of the
item are on the left side of
the truck now if as said in line
19-20 Stephen was on the front
end left side that which is the
\

vl

drivers side of the vehical pp
169v3 she states he pulled th
-e gun from behind then she sates
for the first time Stephen gave
the petioner a guh in the first
tussle so why did he waite to
use it soiafld i'ike something is
not being said or the full story
is not being toldoor this story
waS referbus*to look like the
petioner-'did it but its ndti adding
upfor the last few lines of ppl69
shes not sure or confused about
the.'rqustiondid she see this J-;
through the front wind shield
I assume the statevis referencen
theshooting
ppl70 v3 is a nother confus
statement she now says they both
have guns or both there arms
are raised as though they both
have gunns in line 19 if your
not sure of onelhow can you be
sure of to andewhy would asao!
woker of a job runn from people
who woul protect and why befeiind
a concret pole and not ifiside
rthen she refused to go inside
even after the shooting stoppedic
enough to:know every one else
left but how would you know others •-v*'
left out the back and if mr garrett
left out the/back where is the
car he was in were did it go
why was Stephen so okay to stay there
as she states it happen he a
excecery to a murder: here is
another issue bill featherson
said he and his partner^saw
some one but stated nuthen about
a possiable fire fight asrlayla
states it as if they walked right
up on the shooting couldnt have
they had a cammara phone they
would have caught that remefcer
it was in real time they break
she is to return the next day
to testify futher startes^on
pp7v4-pp51v4 at this poi on pp
10 she indicates now she sitten
her car with the doorpartly closed
and somthing else has happen.-/
on ppllnow it the petioner who
is fighten with the deasedr
and Stephen is now with the bars

13

.

petioner and Stephen are now
shooting at mr woodrow she states
on ppl5 the state is now leadingTagain as he did with sanders
cause he knows that the story
she is telling is so well hopful
you can see layla says she did
not see Stephen shoot but he
looked likevhe was while she
was crouched behind the cement
pole?obviously watchen the action
on ppl6v4 she describes the
deseased as high how did she
know he was high did she know
him doe£t she get highland here
is what blows me away on ppl6
she; is carrying a phone on while
she is testifying in:the court
room during trail layla answers the qustion
ppl7-: shd says its normal for
people to be!-high and. agessive
she changes he story but he actions; as she explaines no ?
speakes volumes-how do you call
not aggressivesceaming and theats
she had to know him heres another key'
pointrpf)19v4 line 7-16 she states
woodrofr was pat search but he
said he couldnt put on the shirt
to go indo he didntvvtaodrow is
going to state he went in the
bar he bought a tee shirt from
some one leaven and he went in
to the club were he saw the r
petioner workingbut we will get there
the real fire startes on pp29v4
and pp30v4defence baldwin catches
the purgery then she catches
somthen else I cant say what
but it seems thatthe qustions
of her listen to recordings
was one thing but when she
was asked about meeting with
the distic attornys office
she became nerves shock up’*1
line7-25 on pp31v4 baldwin
discusses when the incident “i
happen between 7am and 6am she
states then shes asked when did
these men get there she states
6am now come on sanders said
that they got there bout 4am
she stated the were pat searched
she also stated that she was
putside when they walked up •'
howr

[5

how shes not outside till after
6am that means they were there
two hours more purgry pp35v4
statments made after Sanders
wasrhitor threats line 7-13
threats made by the deseased
dark scott pp36 yet she claim
she was not afraid that would
make any one believe she knew
the deased or these guts period
she was*'asked could they have
gottem weapons she states possable
so she knew they would be able
to acsses weapons lines 14-22
scott dark breath threats line
18
nIll have all of you killed
line 19-20 layla agrees
pp37-48v4 summerybalwin speakes
to the witness aboutsran the r
enital fight or fights that I
still cant believe happen cause
there is no proff. again where
is the DNA from all the so call
tussle
brutal slamming on hoods if this
happen I cant believe it happen
without a fdghtwe know frm pp38
that shersay woodrow never went
in the clubso the lie hes about*, to ?
tell under oath purgery to him
as well-’baixiwin trappes another
lie about the hat but no on 'i
discribes the hat in evidece
not one person pp41--42 is about the bab­
as well was the petioner wearing
the hat discribed thei.next pp
45-46v4 wasconcer to who left
how they left when they left
and a little relationship humor
but betterc on ppwas the key given
by defence attorney'found on
pp48v4 at the end of the testimony
line3-19 state piggy backes her
hat qustioning now we know that
the shooter didnt have that-*hat
onlyla states she found the hat a
hat the hat state has a evidence
its interesting though no one
discribes the hat not even layla
and she found it while.Midden
from all the violince how quincidental
on pp49-51v4 laylas asked 9-18
about how many people were wearing
hats she says to but funny she cant rember

16

o

what color the defendents hat
wasagain she said in the recording
black like sanders were they
reading from the same now she
doesnt know nowin linel7-25r ^
she reviles that she does know
these guysr she knew they had
no car she states they walked
up from bissonnet how did she
kno that remember she could have seen them
arrive she was inside at 4am
if that when they got there a
phone perhapes the same phone
Stephen took:'perhapes she end
with state saying that tose guys
had been there befor anstarted
no trouble baldwin recrosses
she ask layla about how she knew
about the walk on bissonnet
she replyes yes I did baldwin
counters what direction you never
said baldwin asked'you would
hotrkhbw i£rthey had a car
some wererelse or parked it in
the strip now baldwin makes
a back to the first statment
she made to detectivescegielski
on the june of the 22nd of 2014
she lied at trail duing her; r
statment to the policedetectiv
she never said a color hat yet
she poitited them to a hat
and she states at the end of
her«court apperance I just said
baseball cap the only color I
remember
was the color the one that is
now deseased this is the last
of the witneses that the state
broughtto prove this charge so
far I may be wrong I'dont see
anything that sustaines the v.
convictiofn handed down by jury
trail of the 180th court
s that last w
-itnesse?'; it begins'with stste
state acknowlogen that woodrow
was already in TOCJ for tamper
with evidence sentence out of
brazoria drugs he testifyes of
atime at the clube they arrived
he says 3:30am some time close to
4am he was asked wheret-.were you.?:.
fefetsfdfrtf^prior to coming he

V.., ^

n

s
He stated he and pig were at dees a
niger african club rihght acros the
street 'When asked what time he and pig
left the club to come over to h2o he
states 2am. so he wolnLd have made it
befor 3:30am but okay it his story
but be mindful of three diffrent times
of arrival none of which match the time
layla would have been present to see
them arrive or be search ppl6v51ine
9-1# as I said her it is on ppl8v5
see line 1-20 woodrow white* shirt not
bought but some on gave him cause they
were leaven the club after he got it
he said he went in to play pool he i
describes how he had trouble in the i.'V.-club but only speakesof the phon call
on the way out ppl9v says he had
two phones said he was beig accused of
being the police security takes his
phone:pp20v5
find out him and the manager knew each
other pp21 indicates petioner as a
bouncer and security guard says he seen
petioner a couple of times in the clu
-b pp22v5 he states he was told
petionervworked there called for hear
say then said he saw petioner two months
straight 'he identifys petioner again
as the man in the courtroom he states
when he came up that the petioner
and security was in. the front at the :
door in the front pp23v5 says security
asked him for the code to the phone
he would not so they start to fight
he and the security seepp24-25v5
he pig dark scott and the security
are fighten pp26v5 he says pig scott
dark stated that some one hit him in
the face with a gun but he says he did
not see that the gun and the belt
was in the same place they went back
to arguen about the phon dee the manager
comes out tels the guard and petioer to
go inside the comply pick up: there thing
and leave he said petioner picked up
the gun ;and go- ihsi*de he states thats the
last person he saw the gun with he
was asked pp28v5 did you see the petioner
with a gun out side befor he pickup the
gun to go inside no he say no sir
pp29v5 says pis is still screaming threat
assumeddees talkfen to him pp30v5
the door swings open and shotts go off he
states he saw no one he took offc running

16

o

- •._

pp31v5 descibes himself as shot four
times .he says he was hit with a glock
9mm he states he saw othere security
training- dogs coming he speakes on
his condition his bones are broken
from th knees down with plates an screws
pp33states againafter being ask who
was last seen with the gun he states
the petioner pp35v5 says he had known
dark scott 14 years says h2o opens at
2>r00am the time they: arrived or left
dee’s place say it closes, at 7am 8am
now here is were this gets tricky
the wood-row has basicaly toto broken
legs scews and plates when did he have .
a chance between surguryi pain medicatio
-n ect. not saying its not possable
but we will see what mark condon has to
say about the line up state shows him a
bullet fragment as thought as defense
said he cant say weatherthat came out «~
of him but he says yes anyway so state
was allowed to admit the pakage pp40v5
ms baldwin goes over mor prior conviction
6 counts of pep possion -from 08-2013
she asked if that night all three were
smoken pep he said yes from dee’s to
h2o he says yes he was ask to discrib
the two security guardes this time he
speakes of a female security not the
petioner he was askeddid he go in the club
again says yes did he recall interview
with mark condon see pp41v5
pp42v5 asked if he just came from TDGJ
last night he said yes he said that
he did meet with state but just to
ask what happen not to refresh his
memory she said-to him do you recall
you never said any thing about another
shirt and going in the club he says no
she says thats somethen you jusy remember
today ‘he says yes the next statement
he makes takes it al and is later even ask
to mark condon at his second testimony
he says because I remember seeing the •,
defendent petioner on the -balcony of the
club you know he was sitten down watchen
around the I went in side the club to ; *.
shoot pool you know just kinda hanging
now wait at thi point I have a exhibit
#5 a picture of the whole front building f
-om top to bottom wide range you can see
the roof no balcony no latter to climb
mark condon is again going be rasked the :
same qustion concerning his investigation

19

he answers I dont know it could have
been a balcony smug like with a grinn
defense attorny goes in to adressing
all the things he never said that hes
saying now like he couldt go in because
of the wif beater 'he bought a shirt to go
in 'the club or got ashirt from someone
to go in to the club- you never tol him you
were inside playen pool that you saw petio
^ner garret insid the club
she says you just recall all of this today
he says yes he gave a disciption of the ^
clbthen of the'"person with the gun
she ask now you believe to be the peti-odeir
she said he described a person in black .
shirt an pants he said yes she asked and
to be clear you never saw petioner garret
shoot any one correct he states yes
and now some how she says that you believe
petionergarrett is the one is the one p Vt
picked up the gun correct he says yes see
pp44v5 lines 1-25 in 13nal5-25 he starts t
reveal the condition condon found him in
when condon went to qustion him get state
mente and to the photo array he states he
had four bullets in his legs condon state
that he found him to be in so much pain he
used his reaction to th photo arry to pick
the person for him he never told condon he
had frecwent the club for two months you
basicaly never made a statment at all at
the time documented because with seguryes
to fix his legs pain the after pain medica
-tion then he'.catches new charges along *‘.
with failure to l.D as a sex offender its
in the recordes check the criminal history
he was facen muiltipul charges that some ..
how vanished or vgot through out via tdc
and his testimony at petioners trail that
the end of his testimony
second tstmonv is last an final mark cond
-on basicly answered qustions of how he got
to the points of his investigation and basicaly
by the time he said he went home on the night
of the 22nd of june he had his man weather
truth or none I would like to start here first
pp81v5 line 10-25 by the 23rd of june he filed
murder charges with the M.got a warrent
all thats fine thatsiproceedure but on line
18-25 so you didnt get the footage from them
you say till after it went viral to tv
l,
pp82v5 video suvalancesline5-:$9 line ninteen
there is no crime captured
pp83v5 says you can not make out faces". " :

U

no hieght no weight says he obtained the
footage on the 30th 8 to 9 days later :
the surveillance video is there fill free
to see it the exhibit 103 pp85v5 line 10-14
pp86v5 lines 1-15 he states that woodrow
was forthcoming with information I still
cant see how four bullets broken bones and
surgery I would belive he was sleep state
asked about layla he said she did not want
to talk there why thats the qustion why if
the petioner the shooter is gone whats wrong
this on statement makes me fill unsettled
in line 17-18 she was coopertive so you mean
sheisuplied you a suspect and you went with
that no real investigation just off her word
pp88v5defence is now qustioning condon bal*
dwin in linesl2-21 ask about finger prints
he states nono on the path finder he wrestled
grappled picked up and slamed a man holden
him down with one hand an shooting but no
finger prints she didnt ask about DNA i •,
transfer though ther should have been DNA
transfer finger nails clothen wristbands :
knecklaces around his neck sence petioner
was said to had held deased down by his
neck now in pp89v5 1-25 hes asked about
other h2o security guardes he said that on
that date only Stephen was there and blue
moon security and you didnt check them for
footage or matrail from the *crim scene until
it went viral or tv as he stated how.many
other people had things as I stated earlye
in this threshold the scene was contaminat
when the security ran threw it he asked
about his walk through observation and •
search.of h2o he goes though back offices
doors as he states there wasnt a door lock
we did not open pp90v5 as they searched
there were no weapons found he states no
he admites that predudice - just may have
made its way into this in vestgation 'by
not looking at the evidence in full scoop
pp91-92v5 both pages of qustions of eviden
-ce that something was not right he didnt
have the full story but who cares this
girl just gave me all I need someone to fall
guy ^even found out that Stephen wasnt out
there at all that he did not participat
bor see the incident he said im not sure
how to answer that its easy yes or know
did you know these things befor you began
to file carges or to the work as he called
while he was peacook testifying for the :
state as you vaule one life you vaule all

V

{■

pp95this is were you know some underhand
pp96v5 baldwin ask him were you here yeste
rday in line 7-25'pof ;pp95 fist he answered
her yes i was in the witness room from 3:00pm
to 5:00pm but why waiten on Stephen she asked
himdid you see freeman come up to the court
house he replyes I may have sceen come one
he goes on to say but he didnt recogniz him
its been a while he said he states futher
that.'he belived it was a altercation and c
that the deasesed made some strong threats
he agreed inpp96v5 she even ma the statment
one of them that dark scott was qoted say
-ing to peoplefound in line 4-5 about ligh
ten this m&#@'-* f#$$#up now I dont know
after that he confirmed that dark in ded
indeed made that statment then-. she-asked l s
him the qustion of woodrow I like to call
it are there any balconies he said not that
I recall the retracts I mean there could h
have been what kinda answer is that the he
goes on well I was only in there 45min
•
well your honors I guses this guy is addic
ted to the 45 min clause you can almost see
that there is nuthen serious about this in
-vestigation other than the day the petion
-er recieved 30 years for a sarcatic missc
aige of justice Im just trying to show you
the honorable supreme cout that this was il
not a fair trail I will say that the
batson that counsel called for was legal
i you could see it you would be able to see
that a jury of my peers of my race was not
there yet the court said it wasil assume
now if you claim it then thats what you are
these 'days in a day in time wec-i a mans
bathroom is
t that any more and a women
bathroom is nolonger sacret its why it lea
-ves no other choice other than tocite mil
l%r v. anderson as in miller petiafters .*i^1
only chance is toastabish that there was no
objective evidence placing himat the scene
of the crime we see that this is the case
I've been disagred with told that these wi
tnese had compelling testimony I dont see
it I know all the element are there citing
expost facto rules of evidence'l'm asking
you toat less take a look and see if you -i
can see what I see there is no evidece to
sustain this r.nmnp.Hnn gentry v^sinclair
^9X^3d^Z4^aS_2012) weaver 450u.s@28-29 1
n5lS'Tct960 other than analist and guy who
did suggjestive double bind broken rule 1
line upsthats the hole case thank you for
your time :;z

XL

CONCLUSION

The petition for a writ of certiorari should be granted.

•espectfulT
P

BRADLEY RAf

INMAL5r 2Q52570

7091

}

